                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

     I
Cas~ Number: 109030013                                                                       Page 1 of 1



         As part of a proactive review, we reviewed the general ledger and supporting documentation for
         costs incurred by a grant I . Based on our review of the program solicitation and an interview with
         the Program Officer2, we determined the grant incurred unsupported and ineligible direct costs,
                                                                                 4
         plus associated indirect costs. As a result, the grantee3 returned funds to NSF via check.

         Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
